Worldwide Automatic Travel Accident, Extended
Warranty & Baggage Delay Insurance

Worldwide Automatic Travel Accident, Extended Warranty & Baggage Delay Insurance, continued

Worldwide Automatic Travel Accident, Extended Warranty & Baggage Delay Insurance, continued

ankle joint. Loss of Hand means a complete severance, as determined by a physician, of at least 4 fingers at or above
the metacarpal phalangeal joint on the same hand or at least 3 fingers and the thumb on the same hand. Loss of Hearing
means permanent, irrecoverable and total deafness, as determined by a physician, with an auditory threshold of more than
90 decibels in each ear. The deafness cannot be corrected by any aid or device. Loss of Property means Baggage Delay,
Trip cancellation or Trip Interruption, & Trip Delay. Loss of Sight means permanent loss of vision. Remaining vision must
be no better than 20/200 using a corrective aid or device, as determined by a physician. Loss of Sight of One Eye means
permanent loss of vision of one eye. Remaining vision in that eye must be no better than 20/200 using a corrective aid or
device as determined by a physician. Loss of Speech means the permanent, irrecoverable and total loss of the capability
of speech without the aid of mechanical devices, as determined by a physician. Loss of Thumb and Index Finger means
complete severance, through the metacarpal phalangeal joints, of the thumb and index finger of the same hand, as
determined by a physician. Physician means a licensed practitioner of the healing arts acting within the scope of his or her
license to the extent provided by the laws of the jurisdiction in which medical treatment is provided. Physician does not
include you, an immediate family member, your employer or business partner or the policyholder. Policyholder means
PSCU Services. Proof of Loss means written evidence acceptable to us that an accident, accident bodily injury or loss
has occurred. Specialized Aviation Activity means use of a properly certified aircraft for flight on a rocket propelled or
rocket launched aircraft. Specialized Aviation Activity shall include any flight which requires a special permit or waiver from
a governmental authority having jurisdiction over civil aviation, whether or not such permit or waiver is granted. Spouse
means your husband or wife who is recognized as such by the laws of the jurisdiction in which the primary insured person
resides. We, Us and Our means Federal Insurance Company.

We will reimburse the Insured Person for the lesser of:

THE PLAN: As an eligible Cardholder of HawaiiUSA, you, your spouse or Domestic Partner and your Dependent

Children will be automatically insured up to the benefit amount associated with your card against accidental loss of life,
limb, sight, speech or hearing occurring on a Common Carrier Covered Trip while 1) riding as a passenger in, entering or exiting any Common Carrier on which the Insured Person has purchased passage; or 2) riding as a passenger
in, entering or exiting any Conveyance licensed to carry the public for hire or any Courtesy Transportation provided
without a specific charge and while traveling to or from the airport, terminal or station: a) immediately preceding the
departure of the scheduled Common Carrier on which the Insured Person has purchased passage; or b) immediately
following the arrival of the scheduled Common Carrier on which the Insured Person was a passenger; or 3) at the airport, terminal or station at the beginning or end of the Common Carrier Covered Trip. If the purchase of the Common
Carrier passenger fare is not made prior to the Insured Person’s arrival at the airport, terminal or station, coverage will
begin at the time the cost of the Common Carrier passenger fare is charged to the Insured Person’s Account.
Eligible Cards
Visa Platinum EMV

Benefit Amount
$1,000,000

ELIGIBILITY: This insurance plan is provided to eligible Cardholders of HawaiiUSA, automatically when the entire
cost of the passenger fare(s) are charged to an eligible Card account while the insurance is effective. It is not necessary for you to notify your financial institution, the administrator or the Company when tickets are purchased.
the full cost of the insurance.

BENEFICIARY: The Loss of Life benefit will be paid to the beneficiary designated by you. If no such designation

has been made, that benefit will be paid to the first surviving beneficiary in the following order: a) your spouse, b)
your children, c) your parents, d) your brothers and sisters, e) your estate. All other indemnities will be paid to you.

THE BENEFITS: The full Benefit Amount is payable for accidental loss of life; loss of speech and loss of hearing;
loss of speech and one of loss of hand, foot or sight of one eye; loss of hearing and one of loss of hand, foot or sight
of one eye; loss of both hands, both feet, loss of sight or any combination thereof that occurs as the result
of an accident. 50% of the Principal Sum is payable for accidental loss of hand, foot or sight of one eye (any one
of each); loss of speech or loss of hearing. 25% of the Principal Sum is payable of loss of thumb and index finger of
the same hand. “Loss” means, with respect to a hand, complete severance through or above the knuckle joints of at
least 4 fingers on the same hand; with respect to a foot, complete severance through or above the ankle joint. The
Company will consider it a loss of hand or foot even if they are later reattached. “Benefit Amount” means the Loss
amount at the time the entire cost of the passenger fare is charged to an eligible Card account. The loss must occur
within one year of the accident. The Company will pay the single largest applicable Benefit Amount.

Account suffers a loss in the same accident, Federal Insurance Company (the Company) will not pay more than three
(3) times the applicable benefit amount (the aggregate limit of insurance). If an accident results in benefit amounts
becoming payable, which when totaled, exceed three times the applicable benefit amount, then the aggregate limit
of insurance will be divided proportionally among the Insured Persons, based on each applicable benefit amount.

Manufacturer Warranty means a written guarantee to fix any defects in material or workmanship in a Covered Purchase,
made to the Insured Person by the maker of the Covered Purchase.
Purchased Warranty means an optional written guarantee to fix any defects in material or workmanship in a Covered
Purchase, bought by the Insured Person at the time of the Covered Purchase.
EXCLUSIONS: Insurance under this Policy does not apply to Covered Purchases that:
are services, including but not limited to the performance or rendering of labor or maintenance, repair or
installation of goods or property or professional advice;
2. are shipping, transportation or delivery costs;
3. are boats, automobiles, aircraft or any other motorized vehicles, or motorized vehicle parts subject to high risk,
combustible wear and tear or mileage stipulations;
4. are land, buildings, permanently installed items, fixtures or structures;
5. are plants, shrubs, pets, consumables or perishables;
6. are computer software or applications;
7. are purchased for resale, professional or commercial use;
8. are still covered under the U.S. Manufacturer Warranty or Purchased Warranty;
9. did not originally come with a U.S. Manufacturer Warranty or Purchased Warranty;
10. are used, rebuilt, refurbished or remanufactured.
1.

Insurance under this Policy does not apply to defects in material or workmanship of a Covered Purchase that are:
1.
2.
3.
4.
5.
6.

CLAIM PROOF OF LOSS: Complete proof of loss must be given to us within 90 days after the date of loss, or as soon as
reasonably possible. Failure to give complete proof of loss within these time frames will not invalidate any otherwise valid
claim if notice is given as soon as reasonably possible and in no event later than 1 year after the deadline to submit complete
proof of loss.

We will reimburse the Insured Person up to the Daily Benefit Amount of $100 per day, in the event of a Baggage Delay.
Baggage Delay means a delay or misdirection of the Insured Person’s Baggage by a Common Carrier for more than four
(4) hours from the time the Insured Person arrives at the destination on the Insured Person’s ticket. Our payment is limited
to expenses incurred for the emergency purchase of essential items needed by the Insured Person while on a Common
Carrier Covered Trip and at a destination other than the Insured Person’s primary residence. The Baggage Delay Daily
Benefit Amount will be payable up to three (3) days.

The Insured Person must: a) protect the Covered Purchase from further loss or damage; b) report any loss to the Administrator;
c) complete the claim form and return along with legible copies of the original U.S. Manufacturer Warranty, Purchased Warranty,
Account statement showing the purchase of the Covered Purchase and original purchase receipt to the Administrator; d)
provide a copy of the repair bill or a statement indicating that the item cannot be repaired along with evidence that the Covered
Purchase has actually been replaced or repaired;cooperate with the Administrator in the investigation, settlement or handling
of any claims; f) permit the Administrator to question the Insured Person under oath whenever Our investigation deems it
necessary. All statements taken will be signed by the Insured Person; and, g) authorize the Administrator to obtain records,
reports or any other documentation requested necessary to Our investigation or to verify the claim.

FOR CUSTOMER SERVICE INQUIRIES PLEASE CALL THE NUMBER ON THE BACK OF YOUR CARD.
For claims related matters ONLY, please contact the Claims Administrator:

The Baggage Delay Benefit Amount is excess over any other insurance (including homeowners) or indemnity (including any
reimbursements by the airline, cruise line, railroad, station authority, occupancy provider) available to the Insured Person.
DEFINITIONS: Accident or Accidental means a sudden, unforeseen and unexpected event happening by chance.
Accidental Bodily Injury means bodily injury which is accidental, the direct cause of a loss, is independent of disease,
illness or other cause and occurs while you are insured under this policy, which is in force. Account means credit card
accounts, debit card accounts, central bill accounts, checking accounts and savings accounts as set forth in the policy.
Accountholder means any individual who is named on an open and active account with the Policyholder. Cardholder
means an individual who is named on the account card issued by the policyholder. Common Carrier means any motorized
land, water or air conveyance organized and licensed for the transportation of passengers for hire and operated by an
employee or an individual under contract. Common Carrier Covered Trip means travel on a common carrier when the
full fare for transportation has been charged to your account issued by the policyholder. Credit Card means a payment
medium that takes the form of a credit card, credit plate, charge plate, courtesy card or other identification card or device
issued to you. You may use the credit card to purchase, hire, rent or lease property or services. Credit Card does not
include a debit card. Debit Card means a payment medium that takes the form of a card, plate or other identification
card or device issued to you as an owner of a deposit account maintained by the issuer. You may use the debit card to
purchase, hire, rent or lease property or services. Debit Card does not include credit card. Dependent Child means
the primary insured person’s unmarried child, dependent on the primary insured person for maintenance and support,
under the age of 25, or classified as an incapacitated dependent child. Domestic Partner means a person designated
by the primary insured person who is registered as a domestic partner or legal equivalent under the laws of the governing
jurisdiction or who is at least 18 years of age and competent to enter into a contract; is not related to the primary insured
person by blood; has exclusively lived with the primary insured person for at least 12 consecutive months; is not legally
married or separated and has with the primary insured person at least 2 of the following financial arrangements: a joint
mortgage or lease, a joint bank account, joint title to or ownership of a motor vehicle or status as a joint lessee on a motor
vehicle lease or a joint credit card account with a financial institution. Neither the primary insured person nor domestic
partner can be married to, nor in a civil union with, anyone else. Immediate Family Member means the insured person’s
spouse or domestic partner; children including adopted children or step-children; legal guardians or wards; siblings or
siblings-in-law; parents or parents-in-law; grandparents or grandchildren; aunts or uncles; nieces and nephews. Injury
means bodily injury which is accidental; is the direct source of a loss; is independent of illness, disease or other cause
and occurs while you are insured under this policy which is in force. Loss means accidental loss of foot, loss of hand, loss
of hearing, loss of life, loss of sight, loss of sight of one eye, loss of speech, loss of thumb and index finger. Loss must
occur within one year after the accident. Loss of Foot means the complete severance of a foot through or above the

Continued on page 7 

Broadspire, a Crawford Company
PO Box 792190
San Antonio, TX 78279
Phone# 844-245-2503
Fax# 855-830-3728

CLAIM FORMS: When the Administrator is told of a claim, the Administrator will give the Insured Person forms for filing
Proof of Loss. If these forms are not given to the Insured Person within 15 days the Insured Person will meet Proof of Loss
requirements by giving the Administrator a written description of the covered loss.

As a handy reference guide, please read this and keep it in a safe place with your other insurance documents. This description
of coverage is not a contract of insurance but is a summary of the principal provisions of the insurance while in effect.
Complete policy provisions are contained In the Master Policy 9907-84-82, which can be obtained from the Policyholder.

CLAIM PAYMENT: Reimbursement for covered losses will be paid to the Insured Person within 60 days after the
Administrator receives Proof of Loss.

CLAIM PROOF OF LOSS: Complete Proof of Loss must be given to the Administrator within 90 days after a covered loss.

Extended Warranty Insurance
THE PLAN: As a HawaiiUSA Visa Platinum EMV Cardholder, you are automatically eligible for Extended Warranty
insurance.
ELIGIBILITY: This insurance plan is provided to HawaiiUSA Visa Platinum EMV Cardholders, automatically when the
entire cost of the Covered Purchase is charged to an eligible Card account while the insurance is effective. It is not
necessary for you to notify your financial institution, the administrator or the Company when items are purchased.
THE COST: This insurance plan is provided at no cost to HawaiiUSA Visa Platinum EMV Cardholders. PSCU pays the
full cost of the insurance.
WHEN COVERAGE APPLIES: We will duplicate the time period of the original
U.S. Manufacturer Warranty and any Purchased Warranty on an Insured Person’s Covered Purchase, up to a maximum of
12 months. If a U.S. Manufacturer Warranty or a Purchased Warranty is made up of multiple components, We will duplicate
the time period of each component. If the total time period for the U.S. Manufacturer Warranty and the Purchased Warranty
is greater than 36 months there is no coverage under this Policy. In no event will the total time period for all warranties,
including this Policy, exceed 48 months.
COVERAGE: We will duplicate the terms, conditions and limitations of the U.S. Manufacturer Warranty and any Purchased
Warranty on an Insured Person’s Covered Purchase up to $10,000 for repair to defects in material or workmanship in a
Covered Purchase; or for replacement of a Covered Purchase if repairs to defects cannot be made. This coverage only
applies if the Insured Person charged or debited the entire cost of the Covered Purchase to the Insured Person’s Account
during the Policy period.

7

Continued on page 8 

For more information
about the benefits
described in this guide, call
the Benefits Administrator
at 1-800-551-8472,
or call collect outside the
U.S. at 303-967-1096.

8

Your Guide to Benefits
describes the benefits in
effects as of 4/1/14.
Benefits information in this
guide replaces any prior
benefits information you may
have received. Please read and
retain for your records. Your
eligibility is determined by your
financial institution.

Platinum Visa Card

For questions about your account, balance, or rewards points please call the customer service number on your Visa card statement.

Warranty Manager Service
What is this benefit?

Warranty Manager Service provides you with valuable features to help manage, use and even extend the warranties of
eligible items purchased with your Visa card. You can access these features with a simple toll-free call. Services include
Warranty Registration and Extended Warranty Protection.

Who is eligible for this benefit?

You are eligible if you are a valid cardholder of an eligible Visa card issued in the United States.

Why should I use Warranty Registration to register my purchases?

You’ll have peace of mind knowing that your purchases’ warranty information is registered and on file. Although Warranty
Registration is not required for Extended Warranty Protection benefits, you are encouraged to take advantage of this valuable
service. When arranging for a repair or replacement, instead of searching for critical documents, you can just pick up the
phone and call the Benefit Administrator.

How do I register my purchases?

To register an eligible purchase call 1-800-551-8472, or call collect outside the U.S. at 303-967-1096. The Benefit
Administrator will provide the address to which you can send in the item’s sales receipt and warranty information so this key
information can be kept on file for you.

How does Extended Warranty Protection work?

Extended Warranty Protection doubles the time period of the original manufacturer’s written U.S. repair warranty up to one
(1) additional year on eligible warranties of three (3) years or less for items purchased entirely with your eligible Visa card.
This benefit is limited to no more than the original price of the purchased item (as shown on your Visa card receipt), less
shipping and handling fees, up to a maximum of ten thousand dollars ($10,000.00) per claim and fifty thousand dollars
($50,000.00) per cardholder.

What about purchases made outside of the U.S.?

HOW TO FILE A CLAIM: The Insured Person must send the Administrator written notice of a claim, including Insured
Person’s name and Policy number, within 45 days after a covered loss occurs.

EFFECTIVE DATE: Your insurance becomes effective on the latest of: the effective date of this policy, the date on which
you first meet the eligibility criteria as the Insured Person or the beginning of the period for which required premium is paid
for you. Insurance for you automatically terminates on the earliest of: the termination date of this policy, the expiration of
the period for which required premium has been paid for you, the date on which you no longer meets the eligibility criteria
as the Insured Person or the date on which the Company pays out 100% of the principal sum.

contact lenses, eyeglasses or hearing aids;
artificial teeth, dental bridges or prosthetic devices;
tickets, documents, money, securities, checks, travelers checks and valuable papers;
business samples;
jewelry and watches; or
cameras, video recorders and other electronic equipment.

not covered under the terms of either the original U.S. Manufacturer Warranty or Purchased Warranty;
repaired at a repair facility that is not authorized by the original product manufacturer;
covered by a product recall;
the result of a power surge;
the result of normal wear and tear;
the result of any hazardous, pathogenic or poisonous, biological, chemical, nuclear or radioactive material, gas,
matter or contamination.

Plan Administrator
The Direct Marketing Group, Inc.
9931 South 136th Street,
Suite 100
Omaha, NE 68138
844-312-2802

TIME PAYMENT OF CLAIMS: The Company will pay you or your beneficiary the applicable benefit amount as soon as
complete proof of loss is received if you, the Policyholder and/or the beneficiary have complied with all the terms of this
policy. If a claim is contested by us, we will notify you or your beneficiary the reasons for contesting the claim within 45
days of receipt of complete Proof of Loss. If we request additional information from you or your beneficiary upon receipt of
requested information we will pay or deny the claim within 60 days. All overdue claim payments will bear simple interest at
the rate of 10% per year.

Essential items not covered by Baggage Delay include, but are not limited to:

6

DEFINITIONS:
Accountholder means any individual who is named on an open and active
Account.
Cardholder means an individual who is named on the Account card.
Covered Purchase means personal property, including gift items, not otherwise excluded that is purchased in full by the
Insured Person using the eligible card. Insured Person means a person, qualifying as a Class member 1) who elects
insurance; or 2) for whom insurance is elected, 3) and on whose behalf premium is paid.

CLAIM FORMS: When the Company receives notice of a claim, the Company will send you forms for giving proof of loss to
us within 15 days. If you do not receive the forms, you should send the Company a written description of the loss.

ADDITIONAL BENEFITS:
Baggage Delay

YOUR GUIDE TO CARD BENEFITS

In no event will We pay more than the Annual Maximum Benefit Amount, shown in Section II of the Declarations, in any 12
month Policy period, regardless of the number of claims made in that 12 month Policy period.
Amount.

CLAIM NOTICE: Written claim notice must be given to the Company within 20 days after the occurrence of any loss
covered by this policy or as soon as reasonably possible. Failure to give notice within 20 days will not invalidate or reduce
any otherwise valid claim if notice is given as soon as reasonably possible.

ACCOUNT AGGREGATE LIMIT OF INSURANCE: If more than one Insured Person insured under the same

the cost of the Covered Purchase indicated on the Insured Person’s Account statement; or
the actual cost to repair or replace the Covered Purchase with an item of like kind and quality; or
the Maximum Benefit Amount shown in Section II of the Declarations.

In no event will We be liable beyond the amounts actually paid by the Insured Person.

EXCLUSIONS: This insurance does not apply to any Accident, Accidental Bodily Injury, Loss, Covered Loss or Loss of Property
when: 1) the United States of America has imposed any trade or economic sanctions prohibiting insurance of any Accident,
Accidental Bodily Injury, Loss, Covered Loss or Loss of Property; or 2) there is any other legal prohibition against providing
insurance for any Accident, Accidental Bodily Injury, Loss, Covered Loss or Loss of Property. Additionally, this insurance does
not apply to any Accident, Accidental Bodily Injury or Loss caused by or resulting from, directly or indirectly, the Insured Person
1) entering, or exiting any aircraft while acting or training as a pilot or crew member. This exclusion does not apply to passengers
who temporarily perform pilot or crew functions in a life-threatening emergency; 2) the Insured Person’s emotional trauma,
mental or physical illness, disease, pregnancy, childbirth or miscarriage, bacterial or viral infection, bodily malfunctions or
medical or surgical treatment or diagnosis thereof. This exclusion does not apply to the Insured Person’s bacterial infection
caused by an Accident or by Accidental consumption of a substance contaminated by bacteria; 3) the Insured Person’s
commission or attempted commission of any illegal act including but not limited to any felony; 4) any occurrence while the
Insured Person is incarcerated; 5) the Insured Person participating in parachute jumping from an aircraft; 6) participating
in military action while in active military service with the armed forces of any country or established international authority.
However, this exclusion does not apply to the first sixty (60) consecutive days of active military service with the armed
forces of any country or established international authority; 7) traveling or flying on any aircraft engaged in Specialized
Aviation Activities; 8) suicide, attempted suicide or intentionally self-inflicted injury; or 9) a declared or undeclared War.

THE COST: This insurance plan is provided at no additional cost to eligible cardholders. Your financial institution pays

1.
2.
3.
4.
5.
6.

a.
b.
c.

M-123298

Purchases made outside of the U.S. are covered as long as you purchased the item entirely with your eligible Visa card and
the eligible item has a valid original manufacturer’s written U.S. repair warranty of three (3) years or less, store-purchased
dealer warranty, or assembler warranty.

What types of purchases are not covered?
B
 oats, automobiles, aircraft, and any other motorized
vehicles and their motors, equipment, or accessories,
including trailers and other items that can be towed by or
attached to any motorized vehicle

R
 eal estate and items which are intended to become part
of real estate including, but not limited to, items that are
hard-wired or hard-plumbed, garage doors, garage door
openers, and ceiling fans

A
 ny costs other than those specifically covered under the  R
 ented or leased items or items purchased on an
terms of the original manufacturer’s written U.S. repair
installment plan and for which the entire purchase price
warranty, as supplied by the original manufacturer, or
was not paid in full at the time of the occurrence
other eligible warranty
C
 omputer software
 Items purchased for resale, professional, or commercial use  M
 edical equipment
U
 sed or pre-owned items

EFFECTIVE DATE: Your insurance becomes effective on the latest of: the effective date of this policy, the date on which you
first meet the eligibility criteria as the Insured Person or the beginning of the period for which required premium is paid for you.
Insurance for you automatically terminates on the earliest of: the termination date of this policy, the expiration of the period for
which required premium has been paid for you, the date on which you no longer meet the eligibility criteria as the Insured Person.

Should I keep copies of receipts or any other records?

As a handy reference guide, please read this and keep it in a safe place with your other insurance documents. This description
of coverage is not a contract of insurance but is a summary of the principal provisions of the insurance while in effect. Complete
policy provisions are contained In the Master Policy 9906-86-87 on file with PSCU.

Filing an Extended Warranty Protection Claim

FOR QUESTIONS REGARDING THIS BENEFIT PLEASE
CONTACT THE PLAN ADMINISTRATOR:

FOR CLAIMS RELATED MATTERS ONLY, PLEASE
CONTACT THE CLAIMS ADMINISTRATOR:

Direct Marketing Group
9931 South 136th street Suite 100
Omaha, NE 68138
844-312-2802

Broadspire, a Crawford Company
PO Box 792190
San Antonio, TX 78279
Phone# 844-245-2503
Fax# 855-830-3728
Policy # 9906-86-87
Plan Underwritten By
Federal Insurance Company
a member insurer of the
Chubb Group of Insurance Companies
15 Mountain View Road, P.O. Box 1615
Warren, NJ 07061-1615

Not if you’ve already registered your purchase. If you have not registered your purchase, however, you should keep copies of
your Visa card receipt, your store receipt, the original manufacturer’s written U.S. warranty, and any other applicable warranty
in the event that you need to file a claim, as these documents will be required to verify your claim.

How do I file a claim?

Call the Benefit Administrator at 1-800-551-8472, or call collect outside the U.S. at 303-967-1096 immediately after
the failure of a covered item.
Please Note: If you do not notify the Benefit Administrator within sixty (60) days after the product failure, your claim
may be denied.
The Benefit Administrator will ask you for some preliminary claim information, direct you to the appropriate repair facility, and
send you the appropriate claim form.
Gift recipients of eligible items are also covered by the claim process. However, a gift recipient must provide all the
documents necessary to fully substantiate the claim.
For faster filing, or to learn more about the Warranty Manager Service benefit,
visit www.visa.com/eclaims

Continued on page 2 

Warranty Manager Service, continued

Travel and Emergency Assistance Services, continued

What documents do I need to submit with my claim?

Complete and sign the claim form sent to you by the Benefit Administrator and submit it within ninety (90) days of the
product failure along with the following documents:
 Y our Visa card receipt
T
 he itemized store receipt
A
 copy of the original manufacturer’s written U.S.
warranty and any other applicable warranty

What are the specific services and how can they help me?
E
 mergency Message Service can record and relay
emergency messages for travelers, their immediate
family members, or business associates. Please Note:
The Benefit Administrator will use reasonable efforts to
relay emergency messages in accordance with benefit
guidelines and limitations, but cannot take responsibility
for the failure to transmit any message successfully.

A
 description and serial number of the item, and any other
documentation deemed necessary to substantiate your
claim (this includes bills and, if necessary, a copy of the
maintenance record and receipts)
T
 he original repair order

M
 edical Referral Assistance provides medical referral,
monitoring, and follow-up. The Benefit Administrator
can give you names of local English-speaking doctors,
dentists, and hospitals; assign a doctor to consult by
phone with local medical personnel, if necessary, to
monitor your condition; keep in contact with your family,
and provide continuing liaison; and help you arrange
medical payments from your Visa or personal account.
Please Note: All costs are your responsibility.

Please Note: All claims must be fully substantiated.

How will I be reimbursed?

If you have substantiated your claim and met the terms and conditions of the benefit, the item will be replaced or repaired at
the Benefit Administrator’s discretion, but for no more than the original purchase price of the covered item as recorded
on your Visa card receipt, less shipping and handling fees, up to a maximum of ten thousand dollars ($10,000.00) per claim,
and a maximum of fifty thousand dollars ($50,000.00) per cardholder.
Under normal circumstances, reimbursement will take place within five (5) business days of receipt and approval of all
required documents.

 Emergency Ticket Replacement helps you through
your carrier’s lost ticket reimbursement process and
assists in the delivery of a replacement ticket to you
should you lose your ticket. Please Note: All costs are
your responsibility.

What about repairs?

Extended Warranty Protection will pay the repair facility directly, or you may go to an authorized repair facility and file a claim for
reimbursement. Only valid and reasonable repairs made at the manufacturer’s authorized repair facility are covered.
In either case, the Benefit Administrator’s payment, replacement, or repair made in good faith will fulfill the obligation under
the benefit.

L
 ost Luggage Locator Service can help you through
the common carrier’s claim procedures or can arrange
shipment of replacement items if an airline or common
carrier loses your checked luggage. The Benefit
Administrator can also arrange a cash advance with your
issuing bank. Please Note: You are responsible for the
cost of any replacement items shipped to you.

Do I have to file with my insurance company?

No. However, if you have purchased or received a service contract or Extended Warranty, Extended Warranty Protection is
supplemental to, and excess of, that coverage.

ADDITIONAL PROVISIONS FOR WARRANTY MANAGER SERVICE

This benefit applies only to you, the eligible Visa cardholder, and to whomever receives the eligible gifts you purchase entirely with your
eligible Visa card.

E
 mergency Translation Service provides telephone
assistance in all major languages and helps find local
interpreters, if available, when you need more extensive
assistance. Please Note:
All costs are your responsibility.

You shall use due diligence and do all things reasonable to avoid or diminish any loss or damage to property protected by this benefit. This
provision will not be unreasonably applied to avoid claims.
If you make any claim knowing it to be false or fraudulent in any respect including, but not limited to, the cost of repair services, no benefit
shall exist for such claim and your benefits may be canceled. Each claimant agrees that representations regarding claims will be accurate and
complete. Any and all relevant provisions shall be void in any case of fraud, intentional concealment, or misrepresentation of material fact.
Once you report an occurrence, a claim file will be opened and shall remain open for six (6) months from the date of the damage or theft.
No payment will be made on a claim that is not completely substantiated in the manner required by the Benefit Administrator within six (6)
months of the date of product failure.

The benefit is provided to eligible Visa cardholders at no additional cost. The terms and conditions contained in this Guide to Benefit may be
modified by subsequent endorsements. Modifications to the terms and conditions may be provided via additional Guide to Benefit mailings,
statement inserts, or statement messages. The benefit described in this Guide to Benefit will not apply to Visa cardholders whose accounts
have been suspended or canceled.
Termination dates may vary by financial institutions. Your financial institution can cancel or non-renew the benefit, and if they do, they will
notify you at least thirty (30) days in advance. This information is a description of the benefit provided to you as a Visa cardholder. Indemnity
Insurance Company of North America (“Provider”) is the underwriter of this benefit and is solely responsible for its administration and claims.
The Benefit Administrator provides services on behalf of the Provider.

FORM #VWMGR 10K-50K-3YR – 2013 (04/14)

WM-O

Travel and Emergency Assistance Services

The following vehicles are not covered by Auto Rental CDW: expensive, exotic, and antique automobiles; certain vans;
vehicles that have an open cargo bed; trucks; motorcycles, mopeds, and motorbikes; limousines; and recreational vehicles.
 Examples of excluded expensive or exotic
automobiles include: the Aston Martin, Bentley,
Bricklin, Daimler, DeLorean, Excalibur, Ferrari, Jensen,
Lamborghini, Lotus, Maserati, Porsche, and Rolls Royce.
However, selected models of BMW, Mercedes-Benz,
Cadillac, and Lincoln are covered.

E
 mergency Transportation Assistance can help you
make all the necessary arrangements for emergency
transportation home or to the nearest medical facility.
This includes arranging to bring your business associates
home and helping you stay in contact with family
members or employers during the emergency. In the
case of a death, the Benefit Administrator can make
arrangements to repatriate the remains. Please Note: All
costs are your responsibility.
P
 rescription Assistance and Valuable Document
Delivery Arrangements can help you fill or replace
prescriptions, subject to local laws, and can arrange
pickup and delivery of prescriptions filled for you at local
pharmacies. It can also help transport critical documents
that you may have left at your home or elsewhere. Please
Note: All costs are your responsibility.

A
 ny obligation you assume under any agreement (other
than the deductible under your personal auto policy)
A
 ny violation of the auto rental agreement or this benefit
 I njury of anyone or damage to anything inside or outside
the rental vehicle
L
 oss or theft of personal belongings
P
 ersonal liability
E
 xpenses assumed, waived, or paid by the auto rental
company or its insurer

D
 epreciation of the rental vehicle caused by
the incident including, but not limited to “diminished
value”
E
 xpenses reimbursable by your insurer, employer, or
employer’s insurance
T
 heft or damage due to intentional acts, or due to the
driver(s) being under the influence of alcohol, intoxicants,
or drugs, or due to contraband or illegal activities

TEAS-O

W
 ear and tear, gradual deterioration, or mechanical
breakdown

Auto Rental Collision Damage Waiver

 I tems not installed by the original manufacturer

What is the Auto Rental Collision Damage Waiver (“Auto Rental CDW”) benefit?

D
 amage due to off-road operation of the
rental vehicle

The Auto Rental Collision Damage Waiver (“Auto Rental CDW”) benefit offers insurance coverage for automobile rentals
made with your Visa card. The benefit provides reimbursement (subject to the terms
and conditions in this guide) for damage due to collision or theft up to the actual cash value of most
rental vehicles.
You are eligible only if you are a valid cardholder whose name is embossed on an eligible Visa card issued in the United States.
Only you as the primary renter of the vehicle and any additional drivers permitted by the auto rental agreement are covered.

Who is eligible for this benefit?

V
 alid loss-of-use charges imposed and substantiated by
the auto rental company

You are eligible if you are a valid cardholder of an eligible Visa card issued in the United States. Your spouse and children
[provided children are dependents under twenty-two (22) years old] may all benefit from these special services.

How do I use these services when I need them?

Within your country of residence, this benefit supplements, and applies excess of, any valid and collectible insurance or
reimbursement from any source. This means that, subject to the terms and conditions of this benefit, Auto Rental CDW
applies to eligible theft or damage or expenses that are not covered by insurance or reimbursement.

Please Note: Travel and Emergency Assistance Services provide assistance and referral only.
You are responsible for the cost of any actual medical, legal, transportation, cash advance, or
other services or goods provided.

Continued on page 3 

1

A
 copy of the accident report form and claim document,
which should indicate the costs you are responsible for
and any amounts that have been paid toward the claim

C
 onfiscation by authorities

A
 copy of the initial and final auto rental agreement(s)

V
 ehicles that do not meet the definition of
covered vehicles

A
 copy of the repair estimate and itemized repair bill

R
 ental periods that either exceed or are
intended to exceed fifteen (15) consecutive
days within your country of residence or
thirty-one (31) consecutive days outside your country of
residence

Initiate and complete the entire rental transaction
with your eligible Visa card.

 A police report, if obtainable

Submit the documents gathered from the auto rental company (listed above) along with the following additional documents
to the Benefit Administrator:
toward the claim. Or, if you have no applicable insurance
T
 he completed and signed Auto Rental CDW claim
or reimbursement, a notarized statement of no insurance
form. Please Note: Your completed claim form must be
or reimbursement is required
postmarked within ninety (90) days* of the date of the
theft or damage, even if all other required documentation  A
 copy of your primary insurance policy's Declarations
is not yet available, or your claim may be denied
Page to confirm your deductible. “Declarations Page”
means the document(s) in your insurance policy that
A
 copy of your receipt or monthly billing statement as
lists names, coverages, limits, effective dates and
proof that the entire vehicle rental was charged and paid
deductibles.
for with your eligible Visa card

L
 eases and mini leases
T
 heft or damage as a result of the authorized driver’s
and/or cardholder’s lack of reasonable care in protecting
the rental vehicle before and/or after theft or damage
occurs (for example, leaving the vehicle running and
unattended)
T
 heft or damage reported more than forty-five (45) days*
from the date of the incident

A
 statement from your insurance carrier (and/or your
employer or employer’s insurance carrier, if applicable)
or other reimbursement showing the costs for which you
are responsible and any amounts that have been paid

T
 heft or damage for which a claim form has not been
received within ninety (90) days* from the date of the
incident
T
 heft or damage for which all required documentation
has not been received within three hundred and sixty-five
(365) days from the date of the incident

A
 ny other documentation deemed necessary by the
Benefit Administrator to substantiate
the claim

Please Note: All remaining documents must be postmarked within three hundred and sixty-five (365) days
of the date of theft or damage. If you have difficulty obtaining the required documents within ninety (90)
days* of the date of theft or damage, submit the claim form with available documentation.

T
 heft or damage from rental transactions that originated
in Israel, Jamaica, the Republic of Ireland, or Northern
Ireland

For faster filing, or to learn more about Auto Rental CDW, visit www.visa.com/eclaims

Do I have to do anything else?

Usually there is nothing else you need to do. Typically, claims will be finalized within fifteen (15) days after the Auto Rental
CDW Benefit Administrator has received all documentation necessary to fully substantiate your claim.
After the Benefit Administrator has paid your claim, all your rights and remedies against any party in respect of this theft or
damage will be transferred to the Benefit Administrator to the extent of the cost of payment made to you. You must give the
Benefit Administrator all assistance as may reasonably be required to secure all rights and remedies.

* Not applicable to residents of certain states.

ADDITIONAL PROVISIONS FOR AUTO RENTAL CDW
You must make every effort that would be made by a reasonable and prudent person to protect the rental vehicle from theft or damage. This
provision will not be unreasonably applied to avoid claims.
If you make any claim knowing it to be false or fraudulent in any respect including, but not limited to, the cost of repair services, no coverage
shall exist for such claim and your benefits may be canceled. Each cardholder agrees that representations regarding claims will be accurate
and complete. Any and all relevant provisions shall be void in any case of fraud, intentional concealment, or misrepresentation of material fact.

2

Decline the auto rental company’s collision damage
waiver (CDW/LDW) option or similar provision.

Once you report an occurrence, a claim file will be opened and shall remain open for six (6) months from the date of the incident/occurrence.
No payment will be made on a claim that is not completely substantiated in the manner required by the Benefit Administrator within twelve
(12) months of the date of the incident/occurrence.
No legal action for a claim may be brought against the Provider until sixty (60) days after the Provider receives Proof of Loss. After the
expiration of three (3) years from the time written Proof of Loss was to be provided, no action shall be brought to recover on this benefit.
Further, no legal action may be brought against the Provider unless all the terms of this Guide to Benefit have been complied with fully.
This benefit is provided to eligible Visa cardholders at no additional cost. The terms and conditions contained in this Guide to Benefit may be
modified by subsequent endorsements. Modifications to the terms and conditions may be provided via additional Guide to Benefit mailings,
statement inserts, or statement messages. The benefit described in this Guide to Benefit will not apply to Visa cardholders whose accounts
have been suspended or canceled.

What if the auto rental company insists that I purchase the auto rental company’s auto insurance or collision damage waiver?

Termination dates may vary by financial institution. Your financial institution can cancel or non-renew the benefit, and if they do, they will
notify you at least thirty (30) days in advance. This information is a description of the benefit provided to you as a Visa cardholder. Indemnity
Insurance Company of North America (“Provider”) is the underwriter of this benefit and is solely responsible for its administration and claims.
The Benefit Administrator provides services on behalf of the Provider.

Call the Benefit Administrator for help at 1-800-348-8472. If you are outside the United States,
call collect at 804-673-1164.

4

 Two (2) photographs of the damaged vehicle,
if available

How do I file a claim?

Helpful tips:
 Be sure to check the rental vehicle for prior damage before leaving the rental lot.
 Review the auto rental agreement carefully to make sure you are declining CDW/LDW and are
familiar with the terms and conditions of the auto rental agreement.

benefit reimburses you for the covered theft or damage as well as valid administrative and loss-of-use charges imposed by
the auto rental company and reasonable towing charges that occur while you are responsible for the rental vehicle.

Continued on page 4 

At the time of the theft or damage, or when you return the rental vehicle, immediately ask the auto rental company for:

To be sure you are covered, take the following steps when you rent a vehicle:

If you do not have personal automobile insurance or any other insurance covering this theft or damage, this
3

Please Note: You must make every reasonable effort to protect the rental vehicle from theft
or damage. As the cardholder you are responsible for reporting your claim to the Benefit Administrator
immediately. Reporting an incident to someone other than the Benefit Administrator will not fulfill this obligation.

How do I make sure my Auto Rental CDW benefit is in effect?

How does this coverage work with other insurance?

No. Travel and Emergency Assistance Services are available to eligible Visa cardholders at no
additional charge.

 Vans are not covered, with the exception of those
manufactured and designed specifically as small group
transportation vehicles (for a maximum of eight (8)
people including the driver).

This benefit is available in the United States and most foreign countries. However, no benefit is provided for motor
vehicles rented in Israel, Jamaica, the Republic of Ireland, or Northern Ireland. Additionally, this benefit is not
available where precluded by law or in violation of the territory terms of the auto rental agreement or prohibited by individual
merchants. Because regulations vary outside the United States, it is recommended you check with your auto rental
company and the Benefit Administrator before you travel to make sure Auto Rental CDW will apply.
This benefit is in effect while the rental vehicle remains in your control or in the control of an authorized
driver permitted to operate the rental vehicle in accordance with the rental agreement between you and
the auto rental company. This benefit terminates when the auto rental company re-assumes control of the rental vehicle.

Please Note: This benefit only covers vehicle rental periods that neither exceed nor are intended to exceed
fifteen (15) consecutive days within your country of residence or thirty-one (31) consecutive days outside your
country of residence.

Simply call the toll-free, 24-hour Benefit Administrator line at 1-800-992-6029. If you are outside
the United States, call collect at 804-673-1675.

Is there a charge for these services?

R
 easonable and customary towing charges, due to
covered theft or damage, to the nearest qualified repair
facility

You should report theft or damage as soon as possible, but no later than forty-five (45) days* from the date of
the incident. The Benefit Administrator reserves the right to deny any claim that contains charges that would not have been
included had the Benefit Administrator been notified before those expenses were incurred, so you are advised to notify the
Benefit Administrator immediately after any incident.

Where am I covered?

The benefit provides reimbursement up to the actual cash value of the vehicle as it was originally manufactured. Most
private passenger automobiles, minivans, and sport utility vehicles are eligible, but some restrictions may apply. Please
contact the Benefit Administrator to inquire about a specific vehicle.
Covered losses include:

P
 hysical damage and/or theft of the covered rental
vehicle

When should I report an incident?

 An antique automobile is defined as any vehicle over
twenty (20) years old or any vehicle that has not been
manufactured for ten (10) years or more.

T
 heft or damage due to hostility of any kind (including,
but not limited to, war, invasion, rebellion, insurrection, or
terrorist activities)

What losses are covered?

This benefit offers services designed to help you in case of an emergency while traveling. The Benefit Administrator can
connect you with the appropriate local emergency and assistance resources available when you are away from home, 24
hours a day, 365 days a year. (Please keep in mind that, due to occasional issues such as distance, location, or time, neither
the Benefit Administrator nor its service providers can be responsible for the availability, use, cost, or results of any medical,
legal, transportation, or other services.)

Immediately call the Benefit Administrator at 1-800-348-8472 to report the theft or damage
regardless of whether your liability has been established. If you are outside the United States, call collect at 804-673-1164.
The Benefit Administrator will answer any questions you or the auto rental company may have and will send you a claim form.

What else is not covered?

C
 ost of any insurance or collision damage waiver offered
by or purchased through the auto rental company

Who is eligible for this benefit?

What do I do if I have an accident or the rental vehicle is stolen?

What do I need from the auto rental company in order to file a claim?

P
 re-Trip Assistance can give you information on your
destination before you leave—such as ATM locations,
currency exchange rates, weather reports, health
precautions, necessary immunizations, and required
passport visas.

FORM #VTEAS – 2013 (Stand 04/14)

Filing an Auto Rental CDW Claim

For questions about a specific vehicle, call the Benefit Administrator at 1-800-348-8472.
If you are outside the United States, call collect at 804-673-1164.

The benefit described in this Guide to Benefit will not apply to Visa cardholders whose accounts have been suspended or canceled. The
terms and conditions contained in this Guide to Benefit may be modified by subsequent endorsements. Modifications to the terms and
conditions may be provided via additional Guide to Benefit mailings, statement inserts, or statement messages.

What is this benefit?

2

L
 egal Referral Assistance can arrange contact with
English-speaking attorneys and U.S. embassies and
consulates if you’re detained by local authorities, have
a car accident, or need legal assistance. In addition, the
Benefit Administrator can coordinate bail payment from
your Visa or personal account. The Benefit Administrator
can also follow up to make sure bail has been properly
handled. Please Note: All costs are your responsibility.

Auto Rental Collision Damage Waiver, continued

If you do have personal automobile insurance or other insurance covering this theft or damage, the Auto
Rental CDW benefit reimburses you for the deductible portion of your personal automobile insurance and any
unreimbursed portion of valid administrative and loss-of-use charges imposed by the auto rental company,
as well as reasonable towing charges resulting from covered theft or damage of the rental vehicle while it is
your responsibility.
What types of rental vehicles are not covered?

ADDITIONAL PROVISIONS FOR TRAVEL AND EMERGENCY ASSISTANCE SERVICES

After the Benefit Administrator has paid your claim, all your rights and remedies against any party in respect of this claim will be transferred
to the Benefit Administrator to the extent of payment made to you. You must give the Benefit Administrator all assistance as may reasonably
be required to secure all rights and remedies.
No legal action for a claim may be brought against the Provider until sixty (60) days after the Provider receives Proof of Loss. No legal action
against the Provider may be brought more than two (2) years after the time for giving Proof of Loss. Further, no legal action may be brought
against the Provider unless all the terms of this Guide to Benefit have been complied with fully.

Auto Rental Collision Damage Waiver, continued

Continued on page 5 

FORM #VARCDW – 2013 (Stand 04/14)
5

ARCDW-O
Continued on page 6 

